as
I

OCKLE

2311 Douglas Street Ne E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs i

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-902

KENNETH E. FLICK,
Petitioner,
v.
ROBERT M. WILKINSON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF AND BRIEF OF AMICI. CURIAE FIREARMS POLICY COALITION AND
FIREARMS POLICY FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5998 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of February, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

, GENERAL NOTARY-State of Nebraska z Chih,
RENEE J. GOSS 9 ‘.
My Comm. Exp. September 5, 2023 *
Notary Public Affiant 40578
